CERTIFICATE OF COMPLIANCE
No.
IN THE

Supreme Court of the United States

NANETTE BLANCHARD-DAIGLE,
Representative of the estate of Lyle Blanchard,

Petitioner,

v.
SHANE GEERS; JIM HATFIELD; BELL COUNTY, TEXAS,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 2,499 words, excluding the parts of the petition that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 26, 2020.
/s M. Lucia Blacksher Ranier
M. LUCIA BLACKSHER RANIER
Attorney for Plaintiff-Petitioner Nanette
Blanchard-Daigle, Representative of the
estate of Lyle Blanchard

